August 18, 2020
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
Office of the Clerk
One First Street, N.E.
Washington, D.C. 20543
Re:

Paskert v. Kemna-ASA Auto Plaza, Inc., dba Auto Smart of Spirit Lake, et al.,
No. 20-27

Dear Mr. Harris:
I am counsel for Brent Weringa, Kenneth Kemna, Auto$mart, Inc., and Kemna Motor Company,
respondents in the above-captioned matter. The petition for writ of certiorari in this case was
docketed on July 20, 2020, making responses due August 19. Under Rules 15.3 and 30.4 of this
Court’s rules, Respondents respectfully request an unopposed extension of time to and including
October 5, 2020, for all responses to the petition. Two reasons underlie the request.
First, Covid-19 has impaired counsel’s ability to consult with one another and to research and
prepare an opposition brief. Second, counsel’s other obligations make an extension necessary.
For example, counsel principally responsible for researching and preparing the opposition has
had to prepare for and appear at a 4-day trial and prepare summary-judgment filings in multiple
other state-court cases. Petitioners do not oppose the requested extension.
Respondents thus request that the deadline for responses to the petition be extended to October 5,
2020.
Sincerely,
Fredrikson & Byron, P.A.
/s/ Bret A. Dublinske
Bret A. Dublinske
Direct Dial: 515.242.8904
Email: bdublinske@fredlaw.com

